TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                          Office of Inspections and Evaluations




               Internal Controls Are in Place to Ensure That
               Deposits Are Safely Delivered by Submission
                   Processing Site Employees, but Some
                    Documentation Could Be Improved



                                      December 3, 2013

                           Reference Number: 2014-IE-R002




       This report has cleared the Treasury Inspector General for Tax Administration disclosure
         review process and information determined to be restricted from public release has
                                  been redacted from this document.


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                  DEPARTMENT OF THE TREASURY
                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          December 3, 2013


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Final Inspection Report – Internal Controls Are in Place to Ensure That
                             Deposits Are Safely Delivered by Submission Processing Site
                             Employees, but Some Documentation Could Be Improved
                             (# IE-13-011)

 This report presents the results of our inspection to determine whether internal controls are in
 place to ensure that deposits are safely delivered to depositories when they must be delivered by
 Submission Processing site employees.

 Synopsis
 Internal Revenue Service (IRS) Submission Processing site employees delivered more than
 1.6 million payments totaling almost $5 billion from October 2011 through May 2013. During
 our inspection, we identified no problems with the delivery of the deposits; however, we found
 that one deposit was delivered by an employee who was not listed as authorized in the Courier
 Contingency Plan at the time of the delivery, and that one site was not using the current Courier
 Daily Checklist (Checklist) and capturing all the necessary information.

 Recommendations
 We recommended that the Director, Submission Processing, Wage and Investment Division,
 require the employees who prepare the Checklist to check the Courier Contingency Plan, if the
 courier is a Submission Processing site employee, to determine whether the courier is authorized
 to deliver the deposit. In addition, the Director, Submission Processing, Wage and Investment
 Division, should ensure that employees use the current version of the Checklist, properly record
 all required information on the Checklist, and provide explanations for untimely deposits on the
 Courier Incident Log.
                  Internal Controls Are in Place to Ensure That Deposits Are
                Safely Delivered by Submission Processing Site Employees, but
                            Some Documentation Could Be Improved



Response
Management agreed with our recommendations. They plan to review the Courier Contingency
Plan at each site to ensure that the list of employees authorized to deliver deposits is accurate and
remind Courier Daily Checklist preparers to be sure that depositing employees are in the plan.
They also plan to ensure that employees at all sites use the current version of the Courier Daily
Checklist, are trained to properly complete it, and fully explain untimely deposits in the Courier
Incident Log.
Please contact me at (202) 927-7048 if you have questions, or Kevin P. Riley, Director,
Inspections and Evaluations, at (972) 249-8355.




                                                                                                    2
                        Internal Controls Are in Place to Ensure That Deposits Are
                      Safely Delivered by Submission Processing Site Employees, but
                                  Some Documentation Could Be Improved




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Deposits Were Safely Delivered by Submission Processing Site
          Employees, but Completion of Some Documentation
          Could Be Improved ....................................................................................... Page 3
                    Recommendation 1:.......................................................... Page 3

                    Recommendation 2:.......................................................... Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
          Appendix IV – Management’s Response to the Draft Report ...................... Page 10
                    Internal Controls Are in Place to Ensure That Deposits Are
                  Safely Delivered by Submission Processing Site Employees, but
                              Some Documentation Could Be Improved




                                           Background

Each Submission Processing site contracts with a courier service to deliver its deposits to the
depository. The courier service has specific requirements and responsibilities that it must meet.1
Each Submission Processing site must have a contingency plan for days when these requirements
and responsibilities are not met or when the regular courier is unable to make the trip, such as a
State holiday that is not also a Federal holiday.
A contingency plan is used when any of the following situations occur:
       The courier fails to arrive or the company fails to send two couriers;
       The courier company’s contract expires;
       The courier(s) or vehicle does not meet requirements;
       The courier service’s insurance binder for deposit reconstruction expired; or
       The time on the Form 10160, Receipt for Transport of IRS Deposit, from the previous
        day exceeds the time allowed in the courier contract, and the courier company
        management cannot provide a reasonable explanation.
Each Submission Processing site is required to incorporate into its local Courier Contingency
Plan a list of designated Submission Processing site employees (primary and alternates) who will
be responsible for delivering the deposit and their telephone numbers.
Submission Processing site employees are required to adhere to all deposit delivery procedures.
They must not make any stops between the office and depository and must have access to a cell
phone in case of emergency. The vehicle must meet the same requirements as the courier
company vehicle.
During Fiscal Year2 2012 and through May of Fiscal Year 2013, Internal Revenue Service (IRS)
Submission Processing site employees delivered more than 1.6 million payments totaling almost
$5 billion dollars.
This review was performed at the IRS Submission Processing sites in Fresno, California, and
Austin, Texas, during June 2013. We conducted this inspection in accordance with the Council

1
  Internal Revenue Manual 3.8.45.1.9 lists the courier service requirements and responsibilities. The Internal
Revenue Manual is the Internal Revenue Service’s primary source of instructions to its employees relating to the
administration and operation of the Internal Revenue Service. The manual contains the directions employees need
to carry out their operational responsibilities.
2
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                        Page 1
                 Internal Controls Are in Place to Ensure That Deposits Are
               Safely Delivered by Submission Processing Site Employees, but
                           Some Documentation Could Be Improved



of the Inspectors General for Integrity and Efficiency Quality Standards for Inspections.
Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                        Page 2
                  Internal Controls Are in Place to Ensure That Deposits Are
                Safely Delivered by Submission Processing Site Employees, but
                            Some Documentation Could Be Improved




                                 Results of Review

Deposits Were Safely Delivered by Submission Processing Site
Employees, but Completion of Some Documentation Could Be
Improved
All five Submission Processing sites have Courier Contingency Plans in compliance with
Internal Revenue Manual requirements. Since October 2011, three of the sites have
implemented the plan up to five times, one has not implemented its Courier Contingency Plan,
and the last has implemented its plan for every deposit made since June 7, 2012. At this last site,
the courier company did not have enough employees to pick up the deposits through the end of
its contract in September 2012. Since that time, the IRS sought bids for a new courier, selected
one in December 2012, completed courier employees’ background investigations, and the
contract courier began picking up deposits on August 5, 2013.
We identified no problems with deposits delivered by Submission Processing site employees;
however, we found several issues with the documents prepared. These documents are part of the
internal controls in place to ensure that deposits are safely delivered to the depository.

Employees must be authorized in the Courier Contingency Plan to deliver
deposits
Each site is required to include the names of employees authorized to deliver deposits in the
Courier Contingency Plan for occasions when it must be implemented. We found that one
Submission Processing site employee who delivered a deposit was not included in the Courier
Contingency Plan in effect at the time as authorized to deliver deposits. This undermines
internal controls. The employee was, however, subsequently added to the Courier Contingency
Plan.

Recommendation
Recommendation 1: The Director, Submission Processing, Wage and Investment Division,
should require the employees who prepare the Courier Daily Checklist to ensure that the
Submission Processing site employees delivering the deposit are listed in the Courier
Contingency Plan just as they would check that the contract couriers are on the Courier Deposit
Access List.
       Management’s Response: Management agreed with our recommendation. They
       will review the Courier Contingency Plan at each site to ensure that the list of employees

                                                                                            Page 3
                  Internal Controls Are in Place to Ensure That Deposits Are
                Safely Delivered by Submission Processing Site Employees, but
                            Some Documentation Could Be Improved



       is accurate and remind the Courier Daily Checklist preparers to be sure depositing
       employees are on the list.

Using a current Courier Daily Checklist would help to ensure that necessary
information is obtained
At one site, we found that employees were not using the current version of the Courier Daily
Checklist. The current version includes a line asking if the delivery time frame from the
previous day’s Form 10160 is within the time allowed in the Courier Statement of Work. One
situation for implementing the Courier Contingency Plan is that courier company management
cannot provide a reasonable explanation for exceeding the delivery time allotted, so the
explanation can be significant. The Courier Daily Checklist reminds the Submission Processing
site employee to obtain an explanation from the courier if the deposit was not delivered timely.
When any item on the Courier Daily Checklist is not in compliance with the Internal Revenue
Manual, the manager must sign the Courier Daily Checklist and include an explanation of the
problem on the Courier Incident Log. We found that deposits that were not delivered in the
allotted time frame were recorded on the Courier Incident Log, but no explanation was provided.
This may have been completed had the current version of the Checklist been used.
In addition, it appears that the Courier Daily Checklist may be prepared by rote at this site. One
Courier Daily Checklist was blank except the signature and date. Other Courier Daily Checklists
were prepared on days when Submission Processing site employees delivered the deposit and the
Courier Daily Checklists were completed as if deposits were picked up by the contracted courier,
as shown in Figure 1.




                                                                                            Page 4
                   Internal Controls Are in Place to Ensure That Deposits Are
                 Safely Delivered by Submission Processing Site Employees, but
                             Some Documentation Could Be Improved



     Figure 1: Courier Daily Checklist Indicating Contract Courier Compliance




    Source: Example of the types of markings observed even when IRS employees actually made the delivery.

Because the Courier Daily Checklist does not indicate that contract couriers did not deliver the
deposit, to identify deposits delivered by Submission Processing site employees, the reviewer
must recognize the courier name on the Form 10160 as an employee. The Courier Incident Log
does not identify when the Courier Contingency Plan was implemented. Therefore, it may not
be obvious to the Headquarters Deposit Analyst during his or her review that the employee of the
courier service contractor did not deliver a deposit or the extent of any problem with the courier
service contractor. The Deposit Analyst must depend on notification by the Submission
Processing site.




                                                                                                      Page 5
                 Internal Controls Are in Place to Ensure That Deposits Are
               Safely Delivered by Submission Processing Site Employees, but
                           Some Documentation Could Be Improved



Recommendation
Recommendation 2: The Director, Submission Processing, Wage and Investment Division,
should ensure that employees use the current version of the Courier Daily Checklist, properly
complete the form, and include explanations for untimely deposits on the Courier Incident Log.
       Management’s Response: Management agreed with our recommendation. They
       will ensure that employees at all sites use the current version of the Courier Daily
       Checklist, are trained to properly complete the form, and fully explain untimely deposits
       on the Courier Incident Log.




                                                                                          Page 6
                    Internal Controls Are in Place to Ensure That Deposits Are
                  Safely Delivered by Submission Processing Site Employees, but
                              Some Documentation Could Be Improved



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this inspection was to determine whether internal controls are in place to
ensure that deposits are safely delivered to depositories when they must be delivered by
Submission Processing site employees. This inspection addresses the major management
challenge of Security for Taxpayer Data and Employees. Data were provided by the IRS
Headquarters Deposit Analyst. We did not verify the source of the data. To accomplish the
objective, we:
I.      Determined whether Submission Processing sites have Courier Contingency Plans that
        are compliant with the Internal Revenue Manual1 requirements.
        A. Documented courier deposit requirements.
        B. Documented Courier Contingency Plan requirements.
        C. Determined the number and dollar amount of deposits delivered by IRS employees at
           each Submission Processing site during Fiscal Years2 2011, 2012, and 2013.
II.     Determined whether proper internal controls are in place for the delivery of deposits by
        Submission Processing site employees.
        A. Reviewed the Courier Contingency Plans for compliance with the guidance
           requirement.
        B. Reviewed Forms 10160, Receipt for Transport of IRS Deposit, to determine whether
           Submission Processing site employees have delivered deposits not reported to the
           Headquarters Deposit Analyst.
        C. Reviewed Courier Daily Checklists to determine whether Submission Processing site
           employees who delivered deposits met the Checklist requirements.
        D. Reviewed Courier Incident Logs to determine whether any incidents involved
           Submission Processing site employees.
        E. Observed Submission Processing site employees transferring a deposit for delivery.


1
  Internal Revenue Manual 3.8.45.1.9 lists the courier service requirements and responsibilities. The Internal
Revenue Manual is the IRS’s primary source of instructions to its employees relating to the administration and
operation of the IRS. It contains the directions employees need to carry out their operational responsibilities.
2
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                        Page 7
                 Internal Controls Are in Place to Ensure That Deposits Are
               Safely Delivered by Submission Processing Site Employees, but
                           Some Documentation Could Be Improved



                                                                 Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections & Evaluations
James A. Douglas, Supervisory Evaluator
Dolores Castoro, Lead Auditor
John L. da Cruz, Program Analyst




                                                                        Page 8
                Internal Controls Are in Place to Ensure That Deposits Are
              Safely Delivered by Submission Processing Site Employees, but
                          Some Documentation Could Be Improved



                                                                         Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Wage and Investment Division SE:W
       Submission Processing, Wage and Investment Division SE:W:CAS:SP




                                                                                Page 9
     Internal Controls Are in Place to Ensure That Deposits Are
   Safely Delivered by Submission Processing Site Employees, but
               Some Documentation Could Be Improved



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 10
  Internal Controls Are in Place to Ensure That Deposits Are
Safely Delivered by Submission Processing Site Employees, but
            Some Documentation Could Be Improved




                                                        Page 11
  Internal Controls Are in Place to Ensure That Deposits Are
Safely Delivered by Submission Processing Site Employees, but
            Some Documentation Could Be Improved




                                                        Page 12
